        On May 27, 2009, we coordinated with a staff member in FWS engaged in this effort to
obtain more information on the announcement. He told us that FWS needed the space for
government personnel for approximately 2 years, and that the bureau was seeking the office
space from the University of Hawaii. He stated that the supporting contracting office approved
the use of financial assistance funds before the announcement was posted on www.grants.gov.

        Financial assistance funds may not be used to lease space for government personnel.
Using financial funds in this manner would violate the Federal Grant and Cooperative
Agreement Act of 1977, and DOI Departmental Manual 505 Part 2, Chapter 2.9(a). These
regulations specify that procurement contracts must be used when the primary purpose of the
instrument, as in the case of the FWS grant announcement, is to acquire (by purchase, lease, or
barter) property or services for the direct benefit or use of the federal government.

        We also note that the General Services Administration (GSA) issued a new bulletin
(Federal Management Regulation (FMR) Bulletin 2008-B1) in November 2007 on delegated
leases that tightened existing regulations. The regulation restricts federal agencies’ ability to
lease space without going through GSA and increases reporting requirements on leases executed
by individual agencies. We reported in 2008 problems the Department must address to comply
with the requirements in this regulation.1

       We did not conduct any analysis in our review to determine the conditions that led to the
posting of this announcement to use grant funds for a lease. However, we are concerned that
staff may not be adequately trained on appropriate processes and procedures for obtaining leased
space.

Recommendations

    We recommend that:

    1)	 this financial assistance opportunity be reviewed to ensure it complies with all regulations
        and policy and that, if it does not, any required space be obtained using appropriate
        processes and instruments in accordance with applicable laws, regulations, and manuals;
        and

    2)	 FWS identify the conditions that led to the posting and ensure that action is taken to
        address them to prevent future occurrences of using improper awarding vehicles to obtain
        leased space.

FWS Response

        You responded to our draft advisory and recommendation one that the Region 1
Acquisitions Office also caught the error and cancelled the announcement. You also indicated
that the procurement for lease space is now being handled by the Region 1 space coordinator and
is following the appropriate space/leasing procurement channels. We are encouraged to hear that

1
 Absent Immediate Action the Department of the Interior Faces Looming Leasing Crisis. July 2008. Y-EV-MOA-
0003-2008.
                                                                                                             2
your office took immediate action, and look forward to details on and documentation of the
actions taken. We remain concerned, however, over the circumstances that led to the posting of
the announcement. We look forward to FWS’ analysis of conditions that led to this posting and
the actions taken to address them.

        We will post this advisory on our website (www.doioig.gov/recovery) and Recovery.gov.
Information contained in this advisory may also be included in our semi-annual reports to
Congress. If you have any questions, or would like a more detailed briefing, please do not
hesitate to contact me.


cc: 	   Acting Assistant Secretary – Policy, Management and Budget
        Director, Office of Acquisition and Property Management
        Director, Office of Financial Management
        FWS Project Lead
        Acting FWS Audit Liaison
        Departmental GAO/OIG Audit Liaison
        Audit Liaison, Office of the Secretary




                                                                                                 3
  Report Fraud, Waste, Abuse,


     and Mismanagement


          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
           wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
             allegations to us in several ways.




By Mail: 	        U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 4428 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone:		       24-Hour Toll Free            800- 424-5081
                  Washington Metro Area        703- 487-5435

By Fax:		         703-487-5402

By Internet:		    www.doioig.gov/hotline
